I

APPENDIX A
(Fifth Circuit Court of Appeals Opinion issued June 15, 2020)

Case: 19-50105

Document: 00515455057

Page: 22

Date Filed: 06/15/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50105

FILED
March 30, 2020
Lyle W. Cayce
Clerk

GRAHAM JAY SONNENBERG,
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeal from the United States District Court
for the Western District of Texas
USDC No. l:18-CV-450

Before SMITH, COSTA, and HO, Circuit Judges.
PER CURIAM:*
Graham Jay Sonnenberg, Texas prisoner # 1950692, moves for a
certificate of appealability (COA) from the denial of his 28 U.S.C. § 2254
petition.

Sonnenberg is serving concurrent sentences of 16 and 20 years,

imposed after a jury convicted him of aggravated assault and strangulation
assault.

* Pursuant to 5TH ClR. R. 47.5. the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CTP. R. 47.5.4.

Case: 19-50105

Document: 00515455057

Page: 23

Date Filed: 06/15/2020

No. 19-50105
Before this court will grant a COA, Sonnenberg must make “a
substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(cV21: see Slack v. McDaniel, 529 IJ.S. 473. 483-84 (2000). He can do so
by showing “that reasonable jurists would find the district court’s assessment
of the constitutional claims debatable or wrong.” Slack, 529 U.S. at 484.
Sonnenberg asserts that trial counsel was ineffective for laboring under
a conflict of interest due to a fee dispute, for failing to assert self defense, for
failing to investigate witnesses and photographic evidence, and for failing to
investigate and use the victim’s medical records. He further contends that the
State withheld some of the victim’s medical records. He also argues that the
federal district court should have held an evidentiary hearing.
Sonnenberg has failed to brief his assertions that he was subjected to
double jeopardy and that counsel was ineffective for failing to request funds
for an investigator and for failing to obtain a bond reduction.

He has

abandoned those claims. See Hughes v. Johnson, 191 F.3d 607. 613 (5th Cir.
1999). With regard to his other claims of ineffective counsel and his claims
that the State withheld evidence, Sonnenberg fails to make the showing
necessary for a COA. A COA is denied with regard to those claims.

See

§ 2253(c)(2); Slack, 529 IJ.S. at 484. The denial of an evidentiary hearing is
affirmed. See Norman v. Stephens, 817 F.3d 226. 234-35 (5th Cir. 2016).
COA DENIED; AFFIRMED.

2

APPENDIX B
(Denial of Rehearing Fifth Circuit issued on October 01, 2020)

Case: 19-50105

Document: 00515586922

Page: 1

Date Filed: 10/01/2020

®mtet> i§>tate3 Court of Appeals
for tfje Jftftf) Ctrtutt
No. 19-50105
Graham Jay Sonnenberg,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Western District of Texas
USDC No. l:18-CV-450
ON PETITION FOR REHEARING EN BANC
(Opinion 3/30/2020, 5 ClR.,

F.3d

Before Smith, Costa, and Ho, Circuit Judges.
Per Curiam:
(V) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member
of the panel nor judge in regular active service of the court having
requested that the court be polled on Rehearing En Banc (Fed. R. App.
P. and 5th Cir. R. 351. the Petition for Rehearing En Banc is
DENIED.

Case: 19-50105

Document: 00515586922

Page: 2

Date Filed: 10/01/2020

19-50105

( ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court and
a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. and 5^Cir.
R. 351, the Petition for Rehearing En Banc is DENIED.

2

APPENDIX D
(Affidavit of witness Sheana Lincoln)

AFFIDAVIT

THE STATE OF COLORADO
county OF

(Pueblo County)

Sheana
BEFORE ME, the undersigned authority, on this day personally appeared
WHO SWORE OR AFFIRMED TO TELL THE TRUTH, AND
Lincoln____________ _______ .
,
STATED AS FOLLOWS:
j
. I am of sound mind and
Sheana Lincoln
My name is
I have personal knowledge of the facts written in this
capable of making this sworn statement.
I understand that if I lie in this statement I may be held criminally responsible. This
statement,
statement is true.
I am the sister in law of Graham Jay Sonnenberg. My name is Sheana Lincoln, I was witness
to the following:
Write your statement here.

On June 22nd 2013,
+Austin, myself, Graham and Bashka went tubbing at Don's Fish Camp. Bashka purchased
alcohol and we all drank. Graham drank less than everyone. Bashka and I got separated from
Austin and Graham while tubbing. Bashka fell off her tub, hit her lip on another girl, Graham
drove us all home to Bashas home. Graham and Bashka started arguing in the car, which
continued until we got to her home. The argument escalated and Graham wanted his keys to
leave. Bashka wouldn't give Graham his keys. She told Graham she locked them in his car, so
he broke the back window out to get to them. But, they weren't in his car. Graham went inside
Bashkas home to wash his arm off and they started arguing again. Bashka threatened to call
the police. Graham took off running into the field. Austin and I drove around looking for
Graham around 6 or 7pm, but didn't find him. We drove back to Bashkas and Graham wasn t
there. Graham had
pick him up from the gas station up the road. Dawn took Graham
back by Bashkas home in the morning to finally get his things. A month went by and Graham
and Bashka hadn’t been together anymore. Graham called Austin and said she is threatening to
call the police and say he beat her if he wouldn't be with her anymore. Also, Austin and I called
John Evans office twice and left a message at his office for him to call us back. We left a clear

/

message with his office stating we would like to be a witness in regards to the date of June 22nd,
2013.
/

/

Page 1 of 3

Page 2 of 3

Do rtot sign until youjretorrent of the Notary

Sheana Rene’ Lincoln

STATE OF COLORADO
COUNTY OF (Pueblo County)

SWORN to and SUBSCRIBED before me, the undersigned authority, on the
day of

UA

, 2017 year, by

uv rnmlUMOH E*»«« DECB»gR*;------

£

jPWL^7

Notary Public, Stateof Colorado

Page 3 of 3

!

APPENDIX E
(Affidavit of witness Chase Lincoln)

AFFIDAVIT

THE STATE OF COLORADO
COUNTY OF fPueblo Countv)
BEFORE ME, the undersigned authority,on this day personally
appeared
Z^fhCg?|/^ , WHO SWORE OR AFFIRMED TO TELL THE
TRUTH, ANOSTATED AS FOLLOWS:
. I am of sound mind and capable of making
My name is
this sworn statement. I have personal knowledge of the facts written in this statement. I
understand that if I lie in this statement I may be held criminally responsible. This, statement is
true.
I am the brother of Graham Jay Sonnenberg. My name is Chase Austin Lincoln. I was witness
to the following:
Write your statement here.

On June 22nd 2013
Graham, Bashka, Sheana and I a went to San Marcos to tube the river. While tubing we all had
been consuming alcohol, but Graham had not drank as much as the rest of us. When we were
driving back to Austin after the tubing trip, Graham and Bashka started arguing about simple
stuff things, and it escalated to yelling. When we got to Bashka's house Graham was not happy
and wanted to leave. He was asking Bashka about his car keys. She would not tell him where
the keys were at ail. Finally, she told Graham that they were locked in his car where she put
them. He was very upset that she locked keys in his car so he broke the window with his elbow.
I Tried to stop him but it did not help. I held him for a little until that made him angry also so I
let go of Graham. He yelled at Sheana, and when I let go of Graham he ran inside and wiped
blood on Bashka's arm on the way in the house. He cleaned his arm up inside and we all
suggested he get some help for it. Then Bashka started arguing with Graham again at that point
he ran off into the neighborhood. At about 630pm or 7pm we went looking for graham for a
long time. When we could not find Graham after a long time looking we went back to Bashka's
house to make sure he did not come back. When we got there, she said he had never come
back yet. At this point it was pitch black out and Graham was gone for good. So, we decided to
go home to my house with Sheana. When we got home later in the night she texted me and
told me he had come back and hurt her. I was not there and I believe he never went back to her
house ever. She said he had come back and hurt her but I never saw that ever. When he was

called to court Sheana and I also tried to call John Evans to testify for Graham but he never
called me back or Sheana. Tried to call DA no help from each of these people ever in my
brothers' case. Why is that? Bashka the next day did not have any marks on her that we could
see at all. When we went to get Sheanas shirt she left in Bashka's car and house. There was
never any physical hitting ever I never saw it once. This is Fales and Fake.

Page 1 of 3

f

Page 2 of 3

Do not sigiyuntiLyou are in front of XMe Notary

C'K&'C# -j\-

Lincoln

STATE OF COLORADO
COUNTY OF (Pueblo County)

SWORN to and SUBSCRIBED before me, the undersigned authority, on the
day of

, 2017 year, by

.

NOTARY ip 20124071173 _

llliililll III IT

Page 3 of 3

T1

e

p[

Notary Public, State'Qfxolorado

APPENDIX F
(Affidavit of Petitioner)

§
§
§
§
§
§

EXPARTE

TRAVIS COUNTY, TEXAS
IN THE DISTRICT COURT
427TH JUDICIAL DISTRICT

GRAHAM JAY SONNENBERG'S AFFIDAVIT IN SUPPORT OF HIS
APPLICATION FOR WRIT OF HABEAS CORPUS
STATE OF TEXAS
COUNTY OF ANDERSON

§
§
§
§

UNSWORN DECLARATION

I . Graham Jay Sonnenberg, TDCJ-CID No. 1950692, being presently confined
at the L.C. Poeledge Unit of the Texas Department of Criminal Justice, declare
under penalty of perjury, that I am the person making this sworn statement
in this affidavit.
Excuted on this

_Day ot.UtllA ■-2017.

"My name is Graham Jay Sonnenbetg, afid I am the' applicant in the writ of
habeas corpus for which this affidavit supports. All of the testimony in this
affidavit is either personally known to me, defined

not to be heresay, or is

heresay subject to an exception, and all is true to my belief."
On October 28,2012, I was picked up on or about 6 p.m. at my parents
ranch by Alexis Manley, Once she picked me up, I noticed she had some marks
on her arms,legs, and face as well as an abrasion behind her ear, I confronted
Alexis about these injuries and asked her what happened. Alexis told me that
she had fallen off of the lift gate of her parents box truck in San Antonio
working for her parents company. She also stated that she hurt her. left wrist;
which was still hurting from the fall, as well as reinjured her lower back
from a car accident in Feburary 2012 where she had rear ended another car in
which the air bags had deployed and she was hospitalized.
Cnee we arrived in Austin, Alexis drove to twin liquors or Wiggy's liquor
store next to the Gables apartment complex located off of Lake Austin Blvd in
Terry Town. Alexis bought tittos vodva,beer, and other mixers, a purchase of
$123.00 worth and paid for the purchases with an American Express card.
Once we arrived at her apartment, we started drinking and having a good
time. Alexis was getting tipsy and decided that she wanted to go swimming. .
I then suggested that we go across the way, to my friends apartment. Ryan
Nail's apartment is in the Gables complex and invited him to go swimming with
us. Ryan was an actor from the show "Friday Night Lights"; but he could not
go swimming, because he was working on a workout video with his business partner.
PAGE 1 of 6

I visited Ryan for a short while, but I had

to leave because Alexis was well

intoxicated, and.getting jealous over the young lady at Ryan's (Ryans business
partner), and acting rude and embarrassing herself and

Therefore, I left

with Alexis, then got slapped because she accused me of flirting with the
young lady at Ryan's place, which then escalated into her curing, punching,
and pushing me. I cursed her out and turned around and wentj outside to calm
down and smoke a cigarrette. Once I returned, she was snorting cocaine, and
she stated the she had also taken extacy, as well as a zanex. Everything
seemed to have calmed down at this point, so I joined her in snorting some
cocaine, , and we had sex and. then afterward, her whole demeanor changed and
she started in again

about the young lady at Ryan's place. I told her

that

this was bullshit and gave her a hug; at which point she bit me on the face
breaking the skin which caused me to start bleeding. I grabbed Alexis by the
hair in the back off herhead to try to pull her off of my face. Her hair
extensions came out and she started slapping me and punching me, I then
slapped her back and pushed her away from me in defense. I then left her
apartment.
When I left, I promptly called John Patterson, on or about 10p.m. to
come and.get me, I then called Jay Plouher, he told me to go to Polazio's
(A Strip Club) and he would meet me there. I called yellow cab and ordered a
cab to take me. Once I arrived at Polazio's the general manager (Jason) took
me into his office to let me use the first aid kit to clean the blood off of
my face, as well as clean the stratches from Alexis Manley's attack. I stayed
at Polazio's till about 2:40am. Jay Plouher never showed up. I then went back
to Alexis house because she had been texting me all night begging me to come
back over.
ttice I arrived, I was greeted by Alexis Bi-Polar attitude; by her smashing
me in the head with a ceramic gnome, causing me to once again start to bleeding.
Then she came at me with a knife and cut my ear, which turned into a fighting
and cursing match, which I eventually was able to wrestle the knife away from
her before she either cut or killed me or herself. She then took off running
for the door and left. Alexis was extremely mad I had went to polazio's.
I was mad and upset for what she had done to me, I was sa frufetrhted'rthat
I head butted the wall. I then yanked all of her fresser drawers out and
threw all her belongings on the floor, scattered her clothes, jewelry, and
stuff everywhere. Shortly thereafter, the police came and detained me an
handcuffed me, and took me to the hospital,and handcuffed me to a bed.
PAGE 2 of 6

A female doctor and nurse saw me, and had picked out little pieces of the
gnome out of my head and stitched.my head,face, and ear, which required
seven stitches; also I was told that my elbow had been shattered, the female
doctor told me to hire a good lawyer, because Alexis was saying all kinds of
crazy stuff about the incident. I told the doctor that the only reason that
Alexis was saying all that, was to cover herself for all of the drinking and
drugs that she was doing because she was out on bond for DWI #2, and they
should give her a breathalizer as well as a blood test to see all of the
drugs in her system, I also told the police this as well. (NOTE: Alexis Manley
picked up my Lucasi boots when she spent the night with me at my parents .
ranch, prior to October 28,2012. Alexis took the boots home with her, to have
them repaired for me, because she liked them, which is the reason Alexis had
my boots at her place. Furthermore, on October 28,2012, I was wearing red
Converse tennis shoes when Alexis picked me up at my parent's ranch, and when
I was at the strip club, as well as when I was arrested.
In 2012 my catering company was set up at the Moontower , a bar in South
Austin selling upscale bar food. One night in December of 2012 I met Barbara
Kucharska Bashka, and her and I were flirtatious with each other. Bashka
needed.a ride home because she had drank to much. We had sex, and afterwards
she told me she needed a roommate. In January 2013 I moved in to Bashka as my
current home was to big for my son Sam and I. Sam and I moved into the spare
bedroom on the other side of Bashka's home. Things were ok

for the first

couple of weeks. Bashka told me she wanted to have children and was taking
pre-natial vitamins. I only had sex with Bashka a few times. I felt that she
was trying to get pregnat by me and I didn't want any more children. We argued
over this, so I stopped having sex with Bashka. Bashka's mood at the end of
March changed and she wanted Sam and I to move out. We did and I moved in with
my friend Justin Avalos on Kennedy St. off of Riverside. Bashka refused to
give Sam and I our belonging's.Couch,Tv,Stereo,Family pictures, Sam's toys,etc.
totaling over $7000 and several more in art work and electronics, all that
we had were our clothes.
During South by Southwest Music Conference Bonappetex, my company with
partners Tye and Dawn Wilson were set up at the White Horse. Tye and Dawn
agreed that traffic would be difficult to take all of our vehicles and we
agreed to car pool. Bashka and I were not speaking much, and when we did it
was in a arguement that Bashka wanted children and to get married..Bashka was
extremely unstable,espically when she had been drinking. Bashka would call
PAGE 3 of 6

:

me constantly to find out where I was and who I was with. She accused me of
cheating on her when we were not even in a relationship. I told Tye and Dawn
how nuts Bashka was and I couldn't have her intervening in my fosus of the
music festival. Tye and Dawn agreed I could stay with them at their house,or
at Casulo hotel during the festival. I only saw Bashka once during South by
Southwest music Conference when she came to the White Horse drunk. She had
lost her keys and came into my food trailer screaming at me in front of my
business partners as well as several customers.She was calling me a cheat and
aiccussing me of sleeping with other woman.She wanted me to ccme to her house.
I called security which removed her from the premises. Later that evening/
morning Bashka's cousin showed up, Tye and Dawn had gone home. Asha, Bashkas
cousin gave me a ride to the Casulo Hotel where we spent the night ( we did
not have sex). Bashka found out about this and came completely unglued. Bashka
swore up and down we had sex. In trial Bashka claims I assualted her and put
a knife to her chin during the South by Southwest mucic Conference, but this
never happened. I moved out the following week, the last week of March into
Justin Avalos house off of Riverside in east downtown Austin.
During the next three months I tried to get our belongings (Sam and I)
from Bashka. Bashka said that she would give us our things at some point,
but continued to try to get me to move back in, but I refused and we never got
our things back.
Memorial Day weekend 2013 Tye and Dawn Wilson throw a BBQ campout almost
every year. This year it was at city park,in which Sam and I went and had a
good time. In trial Bashka claims I was with her in San Antonio, she also
claims I assaulted her, and did $5000 damage to the room that the hotel
lowered to $2000. There was never any documents from the hotel or an invoice
or any forms claiming this was true. This was a lie since I was in Austin
at city park for the BBQ.
In June 2013 on the 22nd, Bashka wanted to go tubing. I was still trying
to get my things as well as Sam's things from Bashka's house, so I agreed to
go. I asked my brother Austin and his girlfriend Sheana to go with me because
I did not want to be alone with Bashka. Her moods were to unpredictable and
figured my brother and his girlfriend could help me talk Bashka into giving me
my stuff. Bashka bought beer, and wine at H.E.B. in San Marcus. We went to
Don's fish camp to go tubing.Bashka flipped her tube while going through the
rapids, bumping her head and lipon another young women causing a small, abrasion
on her cheek bone and busted her lip. Bashka claims I caused these injuries.
PAGE 4 of 6

I did not. Austin and Sheana Lincoln were eye witnesses to this never happening
and were trying to testify to this. Austin and Sheana tried to call the D.A.'s
office but ho one would return there call. Jon Evans refused to allow them to
testify as well. Later in the evening/ once we arrived at Bashka's house/
Bashka would not give me my keys to my car or my cell phone. She locked herself
in her house drunk yelling through the glass door at me. Bashka was jelous of
a fewyoung ladies whom were flirting with my brother Austin and I at Don’s
fish camp in San Marcus where we went tubing. Bashka refused to give me my
keys and cell phone/ Austin and argued as well as he and Sheana at the time
wanted to leave. I could not drive and can't drive any of my vehicles due to
having a breathalizer placed in them by Judge Coronodo in 2012. I walked to the
back of the house to try to get in to Bashka's house. The back door was locked
and yes I kicked a keg shell into a table and broke the glass top. I proceded
to the front door again which Bashka yelled through the door that she had
placed my keys to my BMW as well as my cell phone in my car and locked the
doors. I broke the back window of my car out and cut my arm extremely bad. My
keys were in the house. Bashka lied about my keys being in the car as well as my cell phone to upset me. Once Bashka saw how badly me arm was cut she opened
the door. Her demeaner changed into her apologizing and myself and my brother
went into the house. Once in the house I opened the refigerator door in which
the shelves fell from my force of opening the door and them having to much
stuff on them. I slammed the door knocking the bulb loose from its position.
Bashka told me to get into the shower/ because I was actively bleeding
prefusely from my arm. I did and Bashka got in the shower with me getting blood
all over her as well. I reached for a towel/ the rod holding the towel fell as
it was loose. Bashka whom was very intoxicated started yelling at me. I got
fustrated at the whole situation and walked out of her house/ past my brother
whom was in the house/ past Sheana who was in her car through a field/through
a grave yard.to hwy 1626 in Manachaca.

I went to the convienient store/ I

arrived at the store at about 7:00P.M.. I left Bashkas house around or about
6:40pm/ I called Tye on his cell phone. Tye Wilson picked me up and took me to
his house and his wife Dawn cleaned up my arm. The next day Dawn took me to
Bashka's house to retreive my keys and phone/ which she gave to me. .
Over the next few weeks Bas threatened me in text messages that if I
didn't.get back together with her she was.going to call the cops and tell them
that I had assaulted her, which was not true. Bashka told me in text messages
that she had befriended Alexis Manly and they were going to get me.
PAGE

5 of 6

Bashka filed false charges of assault and strangulation. I was arrested
and somehow Bashka was awarded my BMW by placing an ad in the paper for
ninety days, and with the help of dective Turner, Bashka also never returned
any of my personal property, two flat screen TV'S, Leather sectional,two beds,
’ two dressers, my clothes, my sons clothes,toys,play station and games, as well
as a $3200 stereo. Bashka also tried to claim $5,367 in cash that I was
arrested with which was in a bank envelope with the money was a reciept from
my bank account.

Further Affiont Sayeth Not.

GRAHAM JAY SONNENBERG

PAGE 6 of 6

APPENDIX G
(Photographs from a previous auto accident 55 and 63)

*

[Progress Note] [Alexis Manley] [1292505]

[9/19/2013] Page 1 of2

Progress Note
Patient Name:
Patient ID:
Sex:
Bkthdate:

Alexis Manley
1292505
Female
February 9,1986

Visit Date:
Provider
Location:
Location Address;
Location Phone:

January 30,2013
Kenneth Bunch, MD
Texas Orthopedics Quarry Lake Office
4700 Seton Center Pkwy Suite 200
Austin,7X 78759-4107
(512)439-1000

Chief Complaint
Low back pain unchanged
History Of Present Illness

Patient returns for a follow up visit today. She was last seen 6 months ago. She was involved in a motor vehicle
accident In February 2012 when she was struck from the back passenger side. Her MRI in May 2012 showed disc
generation, at Lo-bi witn a right annular tear and a shallow right protrusion with mild right foraminal narrowing,'
but no nerve root impingement She also has left L5-S1 pseudoarticuiation and an absent right 12th rib. She saw Dr.
Lutz who recommended against surgery. She completed physical therapy and does a home exerdse program. She is
using a TENS unit She is still experiendng regular daily pain that varies in intensity and at times limits her ability to
work and stay on her feet for prolonged periods. She has dedded not to try epidural steroid injections due to phobia
of needles and fear of the procedure and has dedlned getting the procedure by a pain specialist under anesthesia.
She returns today to Inquire if there are any other recommendations for treatment. The pain remains in the low
back and does not refer to the legs.
Review of Systems
Constitutional
o Denies: weight loss, loss of appetite, fever
Eyes
o Denies: blurred vision, double vision, vision loss, eye discomfort
HENT
o Denies: trouble swallowing, hoarseness, hearing loss, nosebleeds
Cardiovascular
o Denies: chest pain, irregular heart beats, palpitations, calf pain
Respiratory
o Denies: shortness of breath, chronic cough, wheezing
Gastrointestinal
o Denies: heartburn, ulcers, nausea, vomiting, blood in stools, diarrhea
Genitourinary
o Denies: painful urination, blood in urine, difficult urination, frequent urination at night, possible pregnancy
Integument
o Denies: frequent rashes, skin ulcers, psoriasis, lumps
Neurologic
o Denies : headaches, dizziness, seizures, numbness, memory difficulties
Musculoskeletal
o Admits: morning stiffness lasting over 30 minutes, joint pain or swelling in other joints
o Denies : neck or back pain, gout
Endocrine
o Denies: heat or cold intolerance, excessive thirst
Psychiatric
6 Admits: anxiety, difficulty sleeping
o Denies: depression, other psychiatric disorder
Heme-Lymph
o Denies: easy bleeding, easy bruising, swollen glands
All Others Negative

APPENDIX H
(Affidavit of Holly Moffitt)

AFFIDAVIT

THE STATE OF TEXAS
COUNTY OF HARRIS
BEFORE ME..the undersjgnedauthority, on this day personally

appeared 4W> ll u mnfc4

, WHO SWORE OR AFFIRMED TO TELL THE

TRUTH, AND STA*Fe6 AS FOLLOWS:
My name is

I am of sound mind and capable of making
this sworn statement. I have personal knowledge of the facts written in this statement. I
understand that if I lie in this statement I may be held criminally responsible. This statement is
true.
I am the aunt of Graham Jay Sonnenberg. My name is Holly Moffitt. During Graham
Sonnenberg's trial I was witness to the foliowing:
The prosecution put pictures up on an overhead screen for the jury to see. Most of the pictures
were left for a short duration of time while the prosecution was addressing the specific incident
that related to the picture. However, there was a disturbing close up picture of Alexis Manley's
injured face that was left up for viewing for an extended period of time. It was left up long
after the prosecution had moved on and was discussing information that was unrelated to that
specific picture still up on the screen. I kept waiting for my nephew's lawyer, Jon Evans, to say
something. The jury was riveted on the screen looking at the picture. Mr. Evans said nothing.
During the sentencing phase of the trial the guard sitting behind my nephew started nodding
her head to indicate agreement with the prosecution. Every time the prosecution stated that
the jury should give my nephew the maximum sentence the guard would emphatically nod her
head "yes*. She did this over and over. I was extremely upset about this. I could see the jury
looking at the guard as she nodded her head. I asked Mr. Evans about this after the jury went
back to deliberate and he said I should have said something while the guard was nodding her
head "yes". I did not know was I allowed to speak while the trial was in session.

Holly Moffitt
Page-1 of 2

STATE OF TEXAS
COUNTY OF HARRIS

SWORN to and SUBSCRIBED before me, the undersigned authority, on the
dav of ■SxX'fK'V

m

2017 year, by

TONI LONG
Notary Pubic, State bf Texas
My Commission Expires
February 11, 2018

Notary Public, State of Texas

Page 2 of 2

viL

APPENDIX I
(Brady Evidence of Alexis Manley proving petitioner did not break her arm
as claimed during trial, and reports to police)

*r •

[Progress Note] [Alexis Manley] [1292505]

[8/13/2014] Page 1 of 1

Progress Note
Patient Name:
Patient ID:
Sex:
Birthdate:

Alexis Manley

Create Date:

November 7, 2012

1292505
Female
February 9,1986

DATE OF INJURY: 10/28/2012^
Chief Complaint
Left forearm pain
History of Present Illness
The patient is a 26-year-old white female who fell down some stales on 10/28/2012. She sustained an Injury to her leftforearrn. This
happened In Hotbrton. She was placed Into' a sugar-tong splint atthat point and time and told to follow up with an orthopedic surgeon,
the pain is a 4/lu or 5/10 on a visual analog scale. It Is sharp, dull, and aching. It is Intermittent She has weakness. Lifting makes her
symptoms worse. Rest, elevation, and a brace have made it better.
Additional Info fPFSHJ
PAST MEDICAL HISTORY: I have reviewed the patient’s past medical, family, and social history as well as review of systems as
completed on the patient medical history form. This is on Ole in the patient's electronic health record.
Physical Examination
tfnoapparent distrea^eadlTnormocephaiic, atraumatic?^
ination today reveals the patient is alert and oriented x3 and i
Is supplej)Lungs have no labored respirations. Heart has a regular rate: fiaSed on peripheral pulse exam, bilateral upper
Tftcies reveal 5/5 strength In a C5-T1 distribution, sensation intact in all dermatomal distributions, and 2+ pulses. Left forearm
reveals tenderness to palpation over the ulna midshaft She has full pronation/supination and full flexion and extension of her elbow
and wrist She does have soft tissue swelling present. Her compartments are soft,
IMAGING STUDIES: X-rays were obtained and evaluated today which reveal evidence of a nondisplaced midshaft ulna fracture
Assessment
Left midshaft ulna fracture
Plan
1.1 recommended a short arm cast. No heavy lifting.
2. Return to dinlc In 4 weeks'time for reevaluation with x-rays on arrival out of plaster.
3. All questions were answered. The patient is agreeable to the above plan.

Electronically Signed by: John E. McDonald, Jr. MD -Author on November 9, 2012 08:49:45 AM

[Digital Signature Validated]

Texas Orthopedics, Sports and Rehabilitation Associates
Quarry Lake

Central Austin

512-438-1000

512-438-1002

South Austin
512-438-1005

Cedar Park Round Rock
512-439-1009

Fax; 512-438-1019

wvw.txortho.oom

Date:

12/07/2012

Patient
Manley, Alexis A.
Account#: 1292505
Diagnosis: Left Fracture of Ulna, Shaft
Prescription: Occupational Therapy
Frequency: 2-3 times per week Duration: 4-6 weeks
Specific Treatment Requested EVAL/Treat
Please fax report to 512-439-1019.

John E. McDonald, M.D.
Orthopedic Surgeon

cc:
enc:

512-439-1004

Marble Falls
877-855-7845

APPENDIX J
(Order Appointing Attorney on October 16, 2013)

No: D-l -DC-13-904091
THE STATE OF TEXAS

IN THE 427TH DISTRICT COURT

VS

OF

GRAHAM SONNENBERG

TRAVIS COUNTY, TEXAS

DOB: 07/03/1972
ORDER APPOINTING ATTORNEY
In the above numbered and entitled cause the Court finds the following:
1) The defendant has been determined to be indigent and in need of legal services pursuant to the
Code of Criminal Procedure, Chapter 26.
2) The attorney hereby appointed is duly qualified to represent the defendant
3) The attorney is appointed in compliance with the procedures adopted by the Criminal Courts of
Travis County or is appointed in a manner which deviates from the general appointment
procedures, halt with good cause; to wit:
4) Defendant is incarcerated/on bond at the time of appointment.
THEREFORE, IT IS ORDERED that JON EVANS, an attorney found by the Court to be competent to
represent the defendant in this cause, is hereby appointed to represent the defendant in this cause as
provided in Article 26.04, Code of Criminal Procedure.

* +

Date:
ApptID:

10/09/2013
444101

a;

m

«

Judge Presiding

°*3

f.\—
l-:--

■■

14

1.

I
Entered
Defendant’s Name:
DOB:

>(n/w

Booking No:

GmMm t

Date:

./o/y/ra— c.m.0 i>ic/?fewf/
Special Needs:.

Add rets:

13WQ3r„ -

Indigence Form

To determine eligibility for Court Appointed Attorney, yo« most complete this form.

/ will retain my own attorney:

Date:
Defemhnt jc Signature

!

Do m* continue* fdlint out form if Pefcndini to retain own attorney
She of Faadly Unit Mctnhci* of immediate family that you nuwmt financially (Lai name, ate A retatiocahip)
Are:
Name:
RehtkmaMp:

Monthly Income
Employer
Position:
Your Salary:

How Long:

Spouse’s Salary:

Necessary Mo. Liviiig Expenses
Rent:
Mortgage:
Utilities (gas, electric, etc.):
Transportation:
Make:Model:
Clothes/Food:

SS1/SSDI:
TANF:

Year

Day Care / Child Care:
Medical Expenses:

Social Security Check:
Child Support:

Credit Card*

Other Government Check:
Other Monthly Income:

Court-Ordered Monies:
Child Support:

TOTAL INCOME*

TOTAL NECESSARY EXPENSES*

SavingV401K Balance:
STAFF USE ONLY:

f. vva r/ltK fin tnUMjtai
TOTAL MONTHLY INCOME:

buy, 13/6610$
DEFENDANT MEETS ELIGIBILITY
IREMENTS

TOTAL MONTHLY EXPENSES:
NO
DIFFERENCE (net income)
UNDETERMINED
/ have been advised ofmy right to representation by counsel in connection with the charge pending against me. I certify that lam
without means to cmplovcounsel of my own choosing and l hereby request the court to appoint counsel for me. / swear that the
aboiv informaAm is trueand correct. The information t listed is accurate and l will immediately notify• the court ofany changes in
myfinancial imationj /
is
nun ofDefendant
Revised UV29/20I2

to verification. Falsification ofinformation is a criminal offense.
Date

/ /

Filed in The District Court
of Travis County, Texts

/o/wn> flrrmjnn

-JL
Amalia RodriguailhndEx Oetk
12

APPENDIX K
(Affidavit of Vickie A. Lincoln)

AFFIDAVIT

§
§
§

VICKIE M. LINCOLN’S AFFIDAVIT IN SUPPORT OF
GRAHAM JAY SONNENBERG'S APPLICATION FOR WRIT OF HABEAS CORPUS

§
§
§
STATE OF TEXAS
COUNTY OF WILLIAMSON
BEEORE ME, the undersigned authority, on this day personally
appeared
•€_
. / jH /f.-yjvuho swore.or affirmed to tell the
truth, and stated as follows:
"My name is
clci e
■ L~J
• I am of sound mind and
capable of making this sworn statement, I have personal knowledge
of the facts written in this statement, I understand that if I
lie in this statement I may be held criraally responsible, This
statement is true.
I am the mother of Graham Jay Sonnenberg. I am 65 years of-.
age. I am a consultant in the field of corporate ground trans­
portation, with 25 years of experience in this field. I reside
at 2507 Creek Bend Circle, Round Rock, Texas 78681.
My.sonj^Graham Sonnenberg, hired an Austin criminal defense
attorney, Jon Evans, to represent him in a case brought against
him by, Alexis Manley, after, finding Mr. Evans in a well known
magazine advertising Mr. Evans and other certain attorneys as
"super lawyers", he believed that Mr. Evans had a good reputation
for successfully representing clients in cases such as his. Mr.
Evans quoted a large sum of money and then took the case. Graham
gave Mr. Evans the amount of money that he had at the time, and
began to try to raise the rest of the money, for his fee.
On subsequent meetings, my son told me that Mr. Evans'
demeanor toward him began to change. As my son took more time
to locate more money with which to pay the fees, Mr. Evans became
more and more aggresive because of the outstanding balance. At
the same time, Graham stated that his attorney, wasn't really doing
much to show that he was diligently working on the case.
Graham mentioned to me that he also gave Mr. Evans the names

1. of 4

of people who would be witnesses, as well as information about
the case, yet, the witnesses were not called, and the information
not verified, that was important to verify pertaining to the case.
My son told me that Mr. Evans began to tell him that he was
going to jail for a long time, unless he got his money. Graham
began calling me to tell me how worried that he was, and that
hd felt that Mr. Evans was not doing his job, yet, he had already
been paid thousands of dollars. Graham told me that he did not
8aVd the rest of the money to pay Mr. Evans at the last meeting;
and Mr. Evans told him,"I don't like you, Sonnenberg."
At this'.’point, Graham told me he had also lost confidence
in Mr. Evans' ability to represent him effectively, and that his
attorney's increasingvangry behavior and his demeaning attitude
toward my son, he felt he would not get adequete representaion
from Jon Evans and wanted to be rid of him. My son told me that
he was increasingly scared of Mr. Evans, and desperate for a
change in representation.
He asked if I could help him find a new attorney for him.
I was able to, yet the fee was similiar to the fee that Mr. Evans
was charging. I asked Graham if he could see about getting the
money back from Mr. Evans, but Graham told me that Mr. Evans re­
fused to give any of the money back to him, despite it seeming
as though he had not done much on the case. We were unable to
help any further, since we had loaned Graham money to start a
new businessi
Over the phone, Graham was sounding desperate when he again
expressed his wish to have Mr. Evans off his case. He felt so
Strongly about it, that he stated to me that he would rather have
a public defender, feeling that he would get better representation.
He also feared what would happen to him, if he did not get rid
of Mr. Evans.
Graham wrote to Judge Coronado to plead with him to help
him obtain a different attorney. He also asked for, and was
granted a public defender by Judge Judy Koceric. When Graham
told me this, he seemed greatly relieved, and more hopeful. The
day then came for Graham to meet with his new attorney. When
the public defender came to meet with my son, it was none other

2. of 4

than Mr. Jon Evans, himself! Again, Graham told bis that: he was
absolutely devastated, and that Mr. Evans told him, "A funny
thing happened, Mr. Sonnenberg, X was appointed as year public
defender!" Graham stated that Mr. Evans continued by saying, "If
I don't get my f***ing money, you are going to prison.. .so have
your mother bring it to me... in cash."
Since he had no more money and he was in a state of duress, with
Mr. Evans now being appointed as his public defender, my son
felt he had no choice but to call and ask me to take Mr. Evans
$7,500 in cash to finish paying his attorney fees. ,I paid the
money, in cash, as Mr. Evans requested at the law offices of
Evans and husk. X am including a copy of that receipt as well
as the business card X was given.
Xt seemed strange to me that X was having to pay money for my
son's public defender, but X felt intimidated by the whole
situation and X was afraid of what was to become of my son. I
was concerned also for my grandson, a little boy with a learning
disability who was emotionally dependent upon his father.
X tried in the following months to reassure Graham that Mr.
Evans would do a good job, now that his fees were paid. Graham
was distraught up to and throughout the trial. In retrospect, I
now feel he had every reason to be afraid and nervous. At his
trial, I got the impression that Graham's attorney was simply
"winging it", at times. X wondered where all the witnesses and
important evidence were to support Graham's side. A witness who
knew important information came to the trial and asked to
testify, but Jon Evans would not put her on the stand. As I sat
at the trial and watched, it seemed the well- prepared
prosecutor overpowered Mr. Evans at almost every point. I feel
Mr. Evans was unprepared and did not bring up key points so that
the jury could better understand my son's side of the story. Be
was subsequently sentenced to 20 years in prison.
\

i

17

Vickie M. Lincoln

3. of 4

STATE OF TEXAS
COUNTY OF

Willow

(name of county)
SWORN to and SUBSCRIBED before me, the undersigned authority,
on the
day of Xu e
,2017 year, by
(print name7
;
i

i

<
<

DEVIN THOMPSON
My Commission Expirn
May 19. 2018

i

t
i
i

v

Notary Public,State of Texas

(NOTARY SEAL MUST BE INCLUDED)

4. of 4

OiiT/Lhasn

No.

mmm «»

136

DATE

1—|$ ^oo o^]
C’C'lA&Kl m^ar^ -ft\/t^-^i(\Uf\4jre^Ti^
Jen
li>o^ -fecc

FROM

Vi

OFOR RENT
OFOR_____
ACCT.

^SaSH

V

©CHECK

PAID
DUE

TO.

©MONEY ORDER
©CREDIT CARD

A-1152
“MM61

BY.

m

JON EVANS
Criminal Defense Lawyer • Board Certified Expert
806 W. 11ft. St.
Austin, Texas 78701
www.biskandevans.com

\

(512)476-4075
(512) 477-6840 Fax
EmaHMeat
jontevanseaol.com

;

STATE OF TEXAS
COUNTY OF
(name erf county)

SWORN to and SUBSCRIBED before me, the undersigned authority,
on the
day of "X„»
,2017 year, by

V{c-k{L

/A

i:

(print name)
\
I

<
<

!

I

i

DEVIN THOMPSON
My Commission Expires
May 19, 2016

i

,
i

<s

i

Notary Public,State of Texas
(NOTARY SEAL MUST BE INCLUDED)

4. of 4

APPENDIX L
(Affidavit of Dawn Grunwaldt)

AFFIDAVIT
THE STATE OF TEXAS
COUNTY OF Travis

BEFORE ME, the undersigned authority, on this day personally appeared Dawn Michelle
Grunwaldt, WHO SWORE OR AFFIRMED TO TELL THE TRUTH, AND STATED AS
FOLLOWS:
My name is Dawn Michelle Grunwaldt. I am of sound mind and capable of making this sworn
statement. I have personal knowledge of the facts written in this statement. I understand that if
I lie in this statement I may be held criminally responsible. This statement is true.
I am a friend of Graham Jay Sonnenberg. My name is Dawn Michelle Grunwaldt. I was
witness to the following:
I have been a friend to Graham Sonnenberg for 17 years now, I am a mother of 3 children and
my youngest is a special needs child. I am good friends as well to Graham Sonnenberg’s Ex Wife
Sheri Bates and I am the God Mother to their Son Samuel Sonnenberg. I am a stay at home
mother as my children are very active in the community and their schools with Sport and Music
Programs, my children are honor role kids, my oldest is in the Top 10% of her High school and I
am very active in all 3 of my children’s school PTA’s and Fundraising, My youngest Child
requires 4 days a week therapy that requires me at home full time as well, He attends
Occupational and Speech and ABA at Texas State University CARES program. This is so you
can know a little of whom is writing this on Graham Sonnenberg’s behalf.
I attended the trail from the time it began until the time it ended each day that Graham was there
at the Travis County Courthouse, I sat in for all testimonies and I listened to the prosecution and
Mr. Jon Evans rebuttals who was Graham Sonnenberg’s Court Appointed Attorney I heard all the
Woman and Officers Testify as well and this trail seemed very one sided meaning that Mr. Evans
was not doing his job for Graham properly he seemed not prepared to me everyday, there were
no witnesses ALLOWED to testify on Graham’s behalf and I did not understand why both sides
of certain events were not being defended by Mr. Evans on Graham Sonnenberg’s behalf from
his attorney, was Graham telling his side to him and it was not getting conveyed (I don’t know
but it seemed) like certain things should have been told and expressed to defend those nights on
Grahams behalf when some of those ladies were speaking.
I was one of those witnesses that was told by Mr. Evans himself that it was not necessary for
myself or anyone else to testify? When I asked him why in the hallway at the Travis County
Courthouse, why can we not tell our sides of those events, that the prosecutors are sharing with
the jurors in this case from the Ladies that were on the stands telling their sides to these events ?
(I said) Mr. Evans there are two sides to every story you know this right sir and Graham has a lot
of friends that witnessed some of these events that they are accusing him of, sir, why are they not
being called up to help Graham (where are they?) and Mr. Evans said ma’am “Its not necessary
as it will not help him” I WAS Shocked I could not believe what I just heard from Graham
— ^Sonnenberg s attorney. It was. almost like he gave up-on Graham-like-he-wasnot even-tryingTo _
Defend him or do his research to see the other side of those nights. He received 20 years of
prison time, thrown away and not heard or helped for the problem that was evident for Mr.
Graham Sonnenberg.
Thank you for taking the time to in reading my small input of what I saw and was told.

tel'

Dawn Michelle
Page 1 of 2

STATE OF TEXAS
COUNTY OF Travis
SWORN to and SUBSCRIBED before me, the undersigned authority, on the
JULY
day of
,,2017 year, by
'lmiu MiCRElU (SRUKJtuMDl

(j>^\

[
ffrd* lit

<
<

Page 2 of 2

JOANGELI MANALANG
Notary ID #131000414
My Commission Expires
February 9,2021

(^Notary Ftiblic, State of Texas

APPENDIX M
(Affidavit of Chase Lincoln)

I

:s AFFIDAVIT
THE STATE OF COLORADO
COUNTY OF PUEBLO COLORADO
BEFORE ME, the undersigned authority, on this day personally appeared Chase Austin Lincoln, WHO
• SWORE OR AFFIRMED TO TELL THE TRUTH, AND STATED AS FOLLOWS:
My name is Chase Austin Lincoln. I am of sound mind and capable of making this sworn statement. I have
personal knowledge of the facts written in this statement I understand that if I lie in this statement I may be
held criminally responsible. This statement is true.
I am the brother of Graham Jay Sonnenberg. My name is Chase Austin Lincoln. I was witness to the follow­
ing:
Write your statement here.
I Chase Lincoln have never been contacted by Jon Evans. I contacted his office 2 times tomake my statement
about my brother. Jon never called me one time to talk or to even ask me to come to court. I have waited to
tell my story and my wife also. She was there making another person who also should have been contacted.
My brother has never had a fare court trial or ey^r?. a fair process. Please allow me at any time to tell my story. I
would say that Jon lies andji
id manipulatesthe legal system to abuseh^Tpmver as a he sees fit My brother
never got the court daydie needed or shoulcEnave had. Please contact nte any time. 512 745 4530

tin Lincoln
Page 1 of 2

c7

STATE OF COLORADO
COUNTY OF PUEBLO COLORADO
SWORN to and SUBSCRIBED before me, the undersigned authority, on the

c\ /Ajmiaia
Notary Public, State of Colorado

/

day of

DEBRA A. GARNER
NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID 19984000234

MY COMMISSION EXPIRES Olflwm

Filed In The District Court
of Travis County, Texas
27/57/3
on
Huq
at
Pm.
Velva L. Price, District Clerk

A

APPENDIX N
(Affidavit of William Lincoln)

:

r
>

t

>•

*

t

J
►

t
>•

'<■

Vc.

•• *1

.

H'

£ r

.^-.AFFIDAVIT •‘ * #

4.

jjT

lN\

*

■*■

*

V

THE STATE OF COLORADO ■
j
COUNTY.OF PUEBLO COLORADO
, .
• 'BEFORE ME, the undersigned.authority, on-tHis day personally appeared William Caswell Lincoln, WHO
SWORE OR AFFIRMED TO TELL THE TRUTH, AND STATED AS FOLLOWS:
■' My name’is William Caswell Lincoln. I am of sound mind and capable of making this sworn statement.
I have personal knowledge of the facts written m this statement I understand that if I lie in this statement
I may be held criminally responsible. This statement is true.
I.am the brother of Graham Jay Sonrienberg. My name is William Caswell Lincoln. I was witness to the
^
•■following:
' fhave never spoken nor have I ever heard from Mr. John Evans before or after Graham Sonnenberg’s Trial.
Also on the account of him teaching but to a friend of mine to testify, on Grahamshehalfhe never, gotback. .
1 ip Mr. Ryan Naile who I personally spoke to on testifying on Grahams behalf. Ryarvtold me he would testiRedbut Mr. Evans neyergot back a hold of him after the initial phone call. Ryan had.pivotal information
pn dates that h^d'occurred coinciding with Grahams trial and incidents pertaining to the trial.
c

, *

.• . 1
«■

V

, t

- •;

.•

J

v7

-\^illiam dasweljdjncoln

• f
I

STATE OF COLORADO
' - COUNTY OF (Pueblo County)
SWORN to and SUBSCRIBED before me, the undersigned authority, on the

gn.

day of

3

__ , 2018 year, by
u

CtL5tve.ll hneolA^
4/X 14

/■

Notary Public, State of Colorado

OEBRA A. GARNER
NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID 19984000234
UV COMMISSION EXPIRES Qt/Ciaoa

Filed In The District Court
Texas

°,TravlsC?^

on

4'. f*
at
Velva L. Price, DistricLCIerk

e‘

